Peace Corps
Office of Inspector General




      Peace Corps Swaziland staff and Volunteers




                  Flag of Swaziland


Final Program Evaluation Report:
      Peace Corps/Swaziland
           IG-11-06-E


                                                   August 2011
                           EXECUTIVE SUMMARY

Over 1,700 Peace Corps Volunteers have served the people of the Kingdom of Swaziland
since the program started in 1969. The program closed in 1996 and re-opened in 2003.
Historically, Volunteers have served in the areas of education, agriculture, and health.
At the time of our visit, there were 70 Volunteers working in one project area:
community health-HIV/AIDS education.

Peace Corps Swaziland has positioned itself for growth, while also preparing for an
uncertain budget picture and a changing host country political and economic climate. A
new education sector will be added to the country program this summer. The post
recently purchased its office building and will complete renovations this year in order to
be able to support up to 90 Volunteers. Volatile economic and political conditions in
Swaziland, combined with growth in the program and infrastructure, underscore a need
for a smooth transition under the new country director (CD) who arrived in the spring of
2011.

We found many elements of a high performing post at PC/Swaziland. Post leadership
implemented improvements that strengthened the program. Staff vacancies and turnover
has stabilized and staff morale and communication has improved. The staff works
together to ensure that Volunteer support needs are addressed, and Volunteers have a
high level of trust in staff with regard to their safety and security, health training, and
support. Volunteers report that they are well-equipped to integrate into their
communities and to maintain their health and safety. The post’s practices for developing
and placing Volunteers at approved sites, including sound housing assessment
procedures, the use of site histories to inform placements, and orienting host families and
counterparts, are all highly effective. Volunteers said they receive the appropriate
training at the right time, and they appreciate the high quality of both trainers and
materials. The staff is effectively meeting the needs of married and 50+ Volunteers.

We found that project goals and objectives are aligned with the Kingdom of Swaziland’s
priorities to combat HIV/AIDS. Volunteers provided examples of actively working to
build the capacity of their counterparts, community leaders, and organizations that can
continue their work after they complete their service. The post is effectively coordinating
with its PEPFAR partners, and Volunteers involved in PEPFAR-funded grant activities
responded favorably regarding how well the activities are operating. However, we found
that 2010 post reports were missing PEPFAR-related data, so it is difficult to determine
whether Volunteers are meeting all project objectives at this time.

Headquarters offices and post staff pay particular attention to reducing the stressors
associated with living and working in Swaziland. The Volunteers live in communities
with high rates of HIV/AIDS and their projects focus on reducing the prevalence of this
disease. Sexual harassment and gender disparities are particularly challenging for female
Volunteers. The post has performed periodic assessments of Volunteer stress levels, and

Final Program Evaluation Report: Peace Corps/Swaziland                                        i
has addressed causes through programmatic changes; Volunteers work less directly with
terminally ill community members than in the past. Volunteers receive training regarding
sexual harassment and unwanted attention, are offered grief and loss training, and
Volunteers support each through the Peer Support Network. Staff members are also a
source for emotional support and Volunteers can access short-term counseling as needed.

Twenty-two PC/Swaziland Volunteers did not complete their service between 2008 and
2010. Project-related stress – including working with HIV/AIDS populations – was a
contributing factor to early departures. Some Volunteers have mental health care support
needs that tax post’s available resources. We found that the recommendations made in
agency assessments in 2007 and 2008 to analyze the factors leading to Volunteer early
terminations had not been addressed. Assessments of early termination data by the
Office of Volunteer Recruitment and Selection and the Office Medical Services will help
to deliver suitable and well-matched Volunteers to the PC/Swaziland program.

Our report contains four recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Swaziland                                 ii
                                         TABLE OF CONTENTS

EXECUTIVE SUMMARY ........................................................................................................ i

HOST COUNTRY BACKGROUND ......................................................................................... 1

PEACE CORPS PROGRAM BACKGROUND........................................................................... 1

EVALUATION RESULTS ....................................................................................................... 3

          VOLUNTEER SUPPORT .............................................................................................. 3

          MANAGEMENT CONTROLS ....................................................................................... 7

          PROGRAMMING ...................................................................................................... 11

          TRAINING ............................................................................................................... 15

          PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF .............................................. 17

OBJECTIVE, SCOPE AND METHODOLOGY ....................................................................... 19

INTERVIEWS CONDUCTED ................................................................................................ 20

LIST OF RECOMMENDATIONS .......................................................................................... 23

APPENDIX A: AGENCY’S RESPONSE TO PRELIMINARY REPORT ..................................... 24

APPENDIX B: OIG COMMENTS ........................................................................................ 29

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ................... 32
                               HOST COUNTRY BACKGROUND

The Kingdom of Swaziland is located in southern Africa. It is surrounded by South Africa to the
north, west and south, and Mozambique to the east. With a population of approximately 1.3
million, its size is slightly smaller than New Jersey. Swaziland is currently ruled by the world’s
last absolute monarch, King Mswati III. In 1973, the government restricted freedom of assembly
and banned political parties. King Mswati III allowed political reforms during the 1990s and
signed a democratic constitution in 2006, although political parties remain banned.

Swaziland has the world’s highest known HIV/AIDS prevalence rate. Twenty-six percent of the
adult population is infected, and as a result, there are over 100,000 orphans and vulnerable
children (OVCs) countrywide.1 Nearly a third of all children are OVCs and include children
living with a parent or other adult who is too ill to work or perform normal activities. Over half
of the Swazi population is under 20 years old, and an estimated 25 percent of all children have
lost one or both parents to AIDS. Other health risks include infectious diseases such as malaria,
typhoid, meningitis, tuberculosis, cholera, and skin infections.

Approximately 70 percent of the population is impoverished subsistence farmers. Production of
staple crops such as maize has declined because of HIV-AIDS-related mortality and drought, and
over half of the Swazi population experiences chronic food insecurity. Food insecurity causes
serious negative impacts on the health of people living with HIV/AIDS, who need a nutrient-rich
diet for effective anti-retroviral treatment. The agriculture sector also suffers from overgrazing,
soil erosion and degradation.

The government has encouraged civil servants to take early retirement in response to an
increasing budget deficit estimated at 13 percent of GDP. Ministry budgets have been reduced
and further cuts in education, health care, and civil service employment are likely in the near
term. It is anticipated that many civil servants will return to their rural homesteads because the
government is increasingly unable to pay their salaries. Recently, protests have occurred at city
centers in response to rumors that civil servant payments will be suspended and due to increased
political tension related to a ban on the formation of political parties.



                       PEACE CORPS PROGRAM BACKGROUND

Over 1,700 Volunteers have served in Swaziland since 1969 supporting education, agriculture,
and health. The program was closed in 1996 for budgetary reasons and because the Ministry of
Education lacked a sustainable, long-term strategy for education. The post re-opened in 2003 at
the invitation of King Mswati III to assist the host government to address the HIV/AIDS
pandemic. At the onset of this evaluation there were 70 Volunteers serving the people of

1
    Orphans and vulnerable children are defined as children with increased vulnerabilities because of HIV/AIDS.


Final Program Evaluation Report: Peace Corps/Swaziland                                                            1
Swaziland, including 2 Peace Corps Response Volunteers. There is currently one project area:
community health-HIV/AIDS education project (hereafter referred to as health).

The health project’s goals are to: 1) improve behavioral health in rural areas, 2) strengthen the
capacity of community-based organizations, and 3) strengthen the capacity of community-based
service providers. Volunteers work in collaboration with the National Emergency Response
Coordination for HIV/AIDS (NERCHA), which reports to the Prime Minister’s office.
Volunteers are partnered with NERCHA KaGogo Centers, rural social community centers that
work with community groups, schools, clinics, and non-governmental organizations and are led
by a government appointed manager. Volunteers with more specialized skills are placed with
NGOs and/or Ministry assignments. Volunteer activities involve teaching youth and adults life
skills, how to reduce high-risk behavior, live healthier lives, and improve family health.
Volunteers educate youth on gender roles and health, well-being and development. They assist
KaGogo Centers with strategic planning, mobilizing and distributing resources, monitoring and
evaluating community HIV/AIDS activities, and information sharing. They work to increase the
technical capacity of community service providers to prevent the spread of HIV/AIDS and to
support those impacted by the disease.

Peace Corps Response Volunteers arrived in 2009 to assist with planning the new education
sector. The first input of 18 education sector Volunteers is planned for June 2011. In 2009, the
government of the Kingdom of Swaziland declared its intent to support free primary education.
The Volunteers will partner with the Ministry of Education and Training, UNICEF’s Schools as
Centers of Care and Support Program, and the World Food Program on food security activities
centered in the schools. Volunteers will be assigned to primary schools and will work with
faculty and administrative staff members to: 1) increase English-language learning for teachers
and students, 2) increase use and understanding of information communication technology for
teachers and students, and 3) train Swazi teachers to use contemporary teaching methods.
Education Volunteers will also address educational, life skills and HIV/AIDS-related matters
affecting the community at large.

Peace Corps Swaziland is the recipient of President’s Emergency Plan for AIDS Relief
(PEPFAR) funds, which supports Volunteer training and a small grants program. Volunteers
support three PEPFAR objectives: 1) Abstinence and Be Faithful; 2) Condoms and Other
Prevention; and 3) Orphans and Vulnerable Children. PEPFAR grants are used by the
Volunteers to promote life skills and HIV/AIDS prevention among Swazi youth, to build
organizational capacity, and to improve community interventions. The post is scheduled to
receive $175,900 for fiscal year (FY) 2011 PEPFAR activities, and an additional $38,900 to fund
PEPFAR grants. The post’s FY 2011 operational budget is approximately $1.3 million.




Final Program Evaluation Report: Peace Corps/Swaziland                                             2
                                      EVALUATION RESULTS

VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided adequate
support and oversight to Volunteers?” To determine this, we assessed staff-Volunteer
communications; project and status report feedback; medical support; administrative support;
safety and security support including staff visits to Volunteer work sites, the Emergency Action
Plan (EAP), and the handling of crime incidents.

In reviewing the quality of overall staff support to Volunteers, including communications, site
visits, safety and security and medical-related support, trimester report feedback, settling-in and
living allowances, we found no significant areas of concern that would warrant action by the
post. Post’s communications practices are effective and its policies are up-to-date.
Communications to Volunteers included programming guidance, trimester feedback, safety and
health and well-being messages and is disseminated regularly by via newsletters and email.
Urgent safety messages are sent to Volunteers by text and email.

Issues raised by Volunteers are addressed and summarized in Volunteer Advisory Committee
notices that discuss actions taken and next steps. Eleven of the 21 Volunteers we interviewed2
rated the Volunteer Advisory Committee favorably.3 The Volunteers we interviewed or visited
at work sites had a current copy of the post’s Emergency Action Plan and correctly identified
their consolidation location. Post’s duty officer protocol, medical evacuation plan, and protocols
for responding to sexual assaults or rape were up-to-date.

Support from staff addresses the diverse needs of Volunteers.

Recognizing its diverse Volunteer population, which includes married couples and 50+
Volunteers with unique support needs, the post set a goal in its 2011-2013 strategic plan
(Integrated Planning and Budget System document) to further improve Volunteer support. The
staff routinely seeks feedback from Volunteers to ensure they are aware of their support needs.
The staff has participated in diversity training to increase awareness of diversity issues and
improve Volunteer support. Volunteers clearly feel well supported by post staff, as is shown in
the table below.




2
  We interviewed a stratified judgmental sample of 30 percent of currently serving Volunteers (21 Volunteers) based
on their length of service, site location, project focus, gender, age, and ethnicity. Volunteers were asked to rate many
items on a five-point scale (e.g., 1 = not familiar, 5 = very familiar). For the purpose of the data analysis, Volunteer
ratings of “3” and above are considered favorable.
3
  Only 11 Volunteers felt they had a basis to judge the effectiveness of the Volunteer Advisory Committee.



Final Program Evaluation Report: Peace Corps/Swaziland                                                                3
           Table 1: Responses on Perception of Support Received from Post Staff
                                         Percent of
                                     Volunteers Rating
                                      “average support
                   Area of Support       or better”     Average Rating
                  Leadership a                        100%                  4.4
                  Programming b                       100%                  4.4
                  Training c                          97%                   4.5
                  Safety and Security d               100%                  5.0
                  Medical e                           90%                   4.3
                  Administrative f                    100%                  4.8
                 Source: OIG Volunteer Interviews.
                 a
                   Leadership was derived from the CD score.
                 b
                   Programming was derived by averaging the scores of the APCDs and Program Assistant.
                 c
                   Training was derived by averaging the Training Manager and Language and Cultural
                 Coordinator scores.
                 d
                   Safety and Security was derived from the SSC score.
                 e
                   Medical was derived from the PCMO score.
                 f
                   Administrative was derived from the DMO score.

Responses to our survey demonstrate that Volunteers feel their support needs are being well met
from the time they arrive as trainees throughout their service.

                  Table 2: Perceptions of Support Received from Post Staff
                                                                            Average
                                                                            Rating
                   Effectiveness of in-country staff in helping you
                                                                               4.3
                   adjust to life as a Volunteer?
                   Post staff’s responsiveness to the issues you
                                                                               4.5
                   raised?
                   How well did site visits meet your support needs?           4.2
                  Source: OIG Volunteer Interviews.

During our visit we observed how staff identifies issues and follows-up with Volunteers to
ensure problems are addressed. Senior staff gathers each morning to discuss new or ongoing
issues or needs of Volunteers, the staff, or project partners. Plans of action are developed and the
status of these plans is reported on by staff in subsequent meetings until the issue is resolved.

Volunteer sites are no more than a three-hour drive from the Peace Corps office, which facilitates
on-site support from the staff. Training and medical staff visit Volunteers during their first
months at site to check on how they are settling in; after three months at site APCDs visit
Volunteers to ensure they are developing working relationships and implementing their projects.
Volunteers are asked to identify issues and needs and to arrange for meetings with APCDs and
counterparts or host organizations. The CD visits each Volunteer after their first year of service
to ensure that they are integrated into their communities, maintaining their health and safety, and
engaging in meaningful work. The CD confirms that previously disclosed support needs or
issues have been resolved.


Final Program Evaluation Report: Peace Corps/Swaziland                                                   4
Volunteers are trained to support each other.

Volunteers support each other through a Peer Support Network (PSN). PSN members are
elected by their peers and participate in a training organized by the PCMO. Training includes
listening skills, availability of appropriate resources and support materials, and confidentiality
requirements. The PSN has established processes for the PSN members to contact the
appropriate staff to help ensure that Volunteers’ emotional, psychological, and medical needs are
met. PSN members are available to answer questions during Pre-service Training (PST) and In-
service Trainings (IST). Many of the challenges that Volunteers face are effectively addressed
through sharing and learning from their PSN peers, which reduces the time and resources staff
would need to apply if the PSN did not exist.

Volunteers rated their PSN a 3.8 average out of 5 and report that it is particularly important in
their adjustment and integration to Swaziland during their first months at site. New Volunteers
are encouraged to call or visit PSN members to help them adjust to life as a Volunteer, and
Volunteers said they used PSN support until they developed trusting friendships with their peers.

Volunteers are well prepared and supported for their personal safety and health needs during
service.

The post’s Safety and Security Coordinator (SSC) is effectively implementing Peace Corps’
safety integration model. The SSC develops relationships with local police near Volunteer sites,
maintains current site locator information, and effectively addresses security incidents when they
occur. He routinely visits local police and regional law enforcement officials to orient them
about the Peace Corps and to discuss specific incidents or safety and security risks. His rapport
with local police has facilitated quick response to Volunteer safety and security incidents. Six
Volunteers interviewed at their work sites described briefings by local police and the SSC with
specific safety and security information relevant to their site and area. Volunteers reported that
this has enhanced their attention to safeguarding belongings during travel and avoiding going out
after dark or locations where they are more likely to be harassed.

In a sample review of 15 site locator forms, all were up-to-date and they contained adequate
directions and maps to Volunteer sites and local police and medical information. All the
Volunteers who reported they had been a victim of a crime confirmed that they had reported it to
the post and they rated satisfaction with how it was handled a 4.3 out of 5.

The PCMO effectively trains and supports Volunteers so they can maintain their health during
service. Volunteers trust that the PCMO would effectively address any health related needs that
arise. The PCMO offers periodic Volunteer health training intended to maintain physical and
mental health including teaching Volunteers how to self-assess if they are showing signs they
need medical attention. She provides trainings on grief and loss, diversity, and unwanted
attention, which the Volunteers believe has helped them to adjust to life and work in Swaziland.
As appropriate, the PCMO can prescribe counseling for Volunteers and has formed affinity
groups composed of Volunteers with similar backgrounds or who require similar types of
support.



Final Program Evaluation Report: Peace Corps/Swaziland                                             5
Post’s efforts to address stressors that affect Volunteers during service have been enhanced
over time and are ongoing.

Peace Corps’ strategic goal number five includes the “provision of high-quality Volunteer
support with optimal healthcare.” Two indicators of this goal are Volunteer satisfaction levels
related to the quality of medical care and mental health care received from PCMOs and staff.

We asked 21 Volunteers to rate their current stress level on a 1-to-5 scale, to describe the sources
of their stress, and the resources available to cope with their stress. Volunteers reported an
average stress level of 2.9 out of 5 (1 = no stress, 5 = very high stress). Group 8 Volunteers, with
approximately three months of service, reported a lower average stress level (2.6) when
compared to Group 7 Volunteers, who have served approximately one year (3.1).

The Volunteers we interviewed reported causes of stress that are similar to Volunteers serving
around the world. In the 2010 Annual Volunteer Survey (AVS), Volunteers listed cultural
issues, isolation and loneliness, and challenges related to their primary assignments as the
primary sources of stress or emotional health issues. In OIG interviews, PC/Swaziland
Volunteers cited similar stressors and specifically referenced working in the HIV/ AIDS project,
dealing with host family members’ illnesses, missing their own families, and working through
counterpart-related issues.

PC/Swaziland Volunteer responses were also similar to the global AVS responses in terms of
their strategies for coping with stress. Volunteers said they spend time with other Volunteers,
spend a day or two away from site, or spend some time by themselves. They also reported
contacting a member of the PSN, other Volunteers, family members, the PCMO, or they
exercise.

Since 2005, the Office of Medical Services (OMS), the Office of Safety and Security, and
Internal Management Assessment (IMA) team members have conducted periodic assessments of
PC/Swaziland Volunteer stress and its causes, and have identified resources available to help
Volunteers cope with the challenges of service in Swaziland. In 2005, a regional Peace Corps
safety and security officer surveyed roughly half of the Volunteers that reported high stress
levels because they lacked a clear understanding of project goals. Post addressed this by
finalizing a detailed project plan and identifying Volunteer project partners. A 2007 OIG memo
alerted region management to Volunteer reports of sexual harassment. In response, the post
enhanced cross-cultural training and offered training with practical strategies to respond to
unwanted attention.

Following a request from regional managers, in September 2007 an Office of Special Services
(OSS) psychologist conducted a Behavioral Health Site Visit at the post. The OSS psychologist
found that Volunteers at one year of service exhibited higher stress levels than those at site just
one month, and that the cumulative nature of stress made it challenging for Volunteers to
maintain a positive cognitive and mood state. She reported that a few Volunteers exhibited
symptoms of depression or acute stress which rose to a clinical level. A 2008 IMA report noted
that the post’s PSN and Volunteer training on grief and loss decreased Volunteer stress.



Final Program Evaluation Report: Peace Corps/Swaziland                                                6
The AVS results show that PC/Swaziland ratings for cross cultural support, safety and security
support and emotional support have increased since 2006. The figure below shows an overall
positive trend in favorable ratings in all three categories.

   Figure 1: Percent of Volunteers Reporting Favorably about Support Provided by Post
                                     Staff, by Topica
                 100%
                  80%                                                 Cross cultural
                  60%                                                 support
                  40%                                                 Safety and
                                                                      security support
                  20%
                                                                      Emotional support
                   0%
                     2006         2008       2009       2010

              Source: Peace Corps Annual Volunteer Survey.
              a
                Note: The Annual Volunteer Survey was administered every two years until 2008. Volunteers
              were not asked to rate cross cultural support in the 2006 survey.

Over the past two years, staff has made additional changes to reduce causes of stress and provide
Volunteers additional resources to cope with stress at their sites, including:

       PSN members and Volunteers visit each other’s sites to help process
       emotionally challenging situations;
       Staff members attended diversity trainings and grief and loss trainings to
       better support Volunteers’ emotional health needs;
       Welcome materials clearly inform invitees they will be exposed to stress,
       grief and loss while living and working among people with HIV/AIDS.
       Volunteers work less directly with terminally ill community members;
       instead they work in community centers with nurses and OVCs, and with
       teachers in the schools; and,
       Married couples and Volunteers of diverse ages are placed in Swaziland
       so that they may interact with similarly aged community members or work
       in same-sex groups.

Additional discussion and recommendations related to Volunteer mental health issues appear in
the next section of this report.


MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which the
post’s resources and agency support are effectively aligned with the post's mission and agency
priorities. To address these questions, we assess a number of factors, including staffing; staff
development; office work environment; collecting and reporting performance data; and the
post’s strategic planning and budgeting.

Final Program Evaluation Report: Peace Corps/Swaziland                                                      7
In reviewing the post’s staffing, performance reviews, and the office work environment, OIG
found no significant areas of concern that would warrant action by the post. The CD and director
of management and operations (DMO) reported that all post staff members are fully performing
their duties and have benefitted from the training and development opportunities provided to
them over the past two years. Staff reported that morale is strong.

Post staffing levels are adequate and staff members’ workload is manageable, although U.S.
direct hire staff reported that they work very hard to “carry the post,” citing a loss of efficiency
due to staff and family illness. A staff backup system is used by management to ensure coverage
during absences. The CD and associate PCMO expressed concern about the workload of the
PCMO, which is discussed later in this report section.

Staff turnover and vacancies have normalized since February 2007, although staff have
expressed concerns that post operations may be negatively impacted when the CD completes her
appointment in early 2011. Regional management and the overseas recruitment manager have
taken proactive steps to avoid a period of vacancy for the CD position. A smooth transition
should allow the post to capitalize on the accomplishments made in recent years and to weather a
potentially volatile political and economic period ahead.

Volunteers have mental health care support needs that tax post resources.

Earlier in this report we discussed stressors that impact Volunteer service, including the stress
associated with work in the HIV/ AIDS project, illness of host family members, missing their
own family, and counterpart-related issues. In FY 2006, the post had the highest annual Peace
Corps early termination (ET) rate at 25 percent, and its ET rates were near 18 percent for the
prior two years.4 In subsequent years, improvements in Volunteer support and changes in project
activities helped to lower ET rates to less than 10 percent for FYs 2009 and 2010.5

We reviewed early termination records from 2008 to 2010 for twenty-two Volunteers who did
not successfully complete their service. We found that the PCMO listed emotional health,
adjustment issues, or clinical depression as reasons why eight of the 22 resigned. In addition,
two of five medically separated Volunteers during that period were separated for mental illness.

According to the PCMO, it is difficult to effectively support Volunteers that require mental
health treatment during service. She stated the number of individuals requiring mental health
treatment or medications have increased since her arrival in February 2005. The PCMO
described a work schedule that includes extra work nights and weekends to manage her
workload. The CD expressed concerns that this workload may cause the PCMO to burnout. The


4
  Early termination is collectively defined as four ways in which Volunteers exit Peace Corps service: resignation,
medical separation, interrupted service, and administrative separation. Medical separation is defined as the
medically necessary, involuntary exit of the Volunteer.
5
  The average world-wide annual early termination rate ranged from 8.3 to 11.2 percent between FYs 2006-2010.



Final Program Evaluation Report: Peace Corps/Swaziland                                                                8
CD voiced concern that those Volunteers who require additional mental health monitoring and
care may be a risk to the post, to the individual, or to the community.

As previously mentioned, in 2007 the Office of Special Services (OSS) conducted a Behavioral
Health Site Visit. In her report, the OSS psychologist recommended a review of mental illness-
related Federal Employees Compensation Act claims for those Volunteers who early terminated
or medically separated from service. The report stated that, “continued attention to accurate and
complete disclosure about the complex environment found in Swaziland is recommended for
recruitment documents.”

The 2008 PC/Swaziland IMA stated that, “Swaziland presents some unique challenges to
Volunteers,” and that, “… the difficulties of living in a high prevalence HIV/AIDS environment
are extremely challenging on a day-to-day basis, especially in their role as community health
workers.” The IMA recommended careful screening of applicants for history of risky behavior,
mental health problems, and recent experience with significant loss; and to consider working
with OMS on the medical clearance process in identifying potential risk factors that might
impact a Volunteer’s ability to cope with a loss saturated environment or with the level of sexual
harassment expected in Swaziland.

To date, the 2007 OSS Behavioral Site Visit recommendations and the 2008 IMA
recommendations cited above have not been fully addressed. Further analysis of the pre- and
post- service records of Volunteers who did not complete their service in Swaziland would help
inform decisions about adjusting the applicant selection and placement strategy for service in
Swaziland, and could increase the prospect that more Volunteers successfully complete their
service.

We recommend:

                 1. That the Office of Medical Services review pre- and post-
                    service medical files and Federal Employees’
                    Compensation Act claims for PC/Swaziland Volunteers
                    who have early terminated or medically separated, and, if
                    deemed appropriate, use these findings to inform its
                    process for the medical clearance of applicants selected to
                    live and work with HIV/AIDS populations.

                 2. That Office of Volunteer Recruitment and Selection in
                    conjunction with the Office of Medical Services and the
                    post, determine if additional applicant assessment and
                    selection protocols are required to effectively select and
                    place applicants who will live and work with HIV/AIDS
                    populations in PC/Swaziland programs.

                 3. That the post, with support of Office of Medical Services,
                    assess the workload of the PCMO to determine whether
                    additional medical staff is needed, and if additional local

Final Program Evaluation Report: Peace Corps/Swaziland                                              9
                     professional resources are available to support
                     Volunteers’ mental health needs.


The post is positioned for growth in an uncertain budgetary and in-country political and
economic climate.

The post is effectively expanding its program and providing support to a more diverse population
of Volunteers while addressing such challenges as an agency-wide budget shortfall and a
changing political and economic climate in-country. The post has responded to the agency’s call
for growth by formalizing Volunteer’s work activities with schools and by developing new
education and NGO sub-sectors. In 2010, region management worked with post leadership to
purchase its office building and approved renovations will allow for sufficient work space to
support up to 90 Volunteers.

Headquarters and post staff agree that the program will reach its saturation point given the small
population and size of Swaziland. OMS developed a plan with the post to address its medical
supply and medical travel budget shortfalls in 2010 and beyond. According to post staff, these
increases are attributed to more frequent medical appointments and travel, and longer recovery
periods of older Volunteers serving there. OMS approved an increase in the post’s budget for
medical expenses, and OMS centralized the payment of medical evacuation costs incurred by the
post.

PC/Swaziland had planned an input of 45 trainees in June 2011, but reduced it to 38 in response
to the region’s request to reduce FY 2011 training inputs due to reductions to the region’s
operating budget. It established a Peace Corps Volunteer leader assignment and hired another
driver, but did not receive the funding to hire a second program assistant as previously planned.
Post leadership expressed a concern that additional budget reductions may impact its funding for
staff training activities, which are important to ensure continuity following staff turnover. The
post reported in its 2011-2013 strategic plan intentions to achieve cost efficiencies by acquiring a
permanent training site. The post has alternated between use of two training facilities and staff
reported that it can be costly to make necessary upgrades and repairs to separate facilities and
host families’ homes each year. The timing of this effort remains unknown until the post’s
budget picture through FY 2013 is clarified.

Economic conditions are worsening in Swaziland, and the post is effectively preparing for how it
will impact the Peace Corps program. The DMO is monitoring the deteriorating economic
conditions and indicated that Volunteer living allowances may be assessed mid-year to determine
if inflation is impacting Volunteers. The CD has worked with the U.S. embassy regional security
officer, the SSC, and the regional Peace Corps safety and security officer to instruct
Volunteers to “stand fast” or remain at their sites during planned protests. The post is not
planning to place Volunteers in the town of Manzini because crime has increased there.




Final Program Evaluation Report: Peace Corps/Swaziland                                           10
PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own needs. To
determine this, we analyzed the following:

       The coordination between the Peace Corps and the host country in determining
       development priorities and Peace Corps program areas;
       Whether post is meeting its project objectives;
       Counterpart selection and quality of counterpart relationships with Volunteers; and
       Site development policies and practices.

In our review of the post’s project goals and Volunteer productivity, we found no areas of
concern that would warrant action from the post. Project goals and objectives are aligned with
host country development needs and PEPFAR priorities. All but one Volunteer reported they are
familiar with their project goals and that they are successfully accomplishing their project
objectives.

The Volunteers we interviewed report that there is enough work for them in their sites and in
their assigned projects. Volunteer satisfaction can be attributed to the health project plan
strategy that encourages Volunteers to work with both adults and youth, and to engage with
individuals, groups and organizations on a broad range of activities such as teaching HIV/AIDS
prevention and life skills to reduce high risk behavior, as well as nutrition to improve family
health. We asked Volunteers, “Who will continue your work when you leave?” Volunteers
provided examples of actively working with counterparts and community leaders to build
capacity of individuals and organizations to continue their work when they leave their sites.

Post is missing data in its PEPFAR country team project reporting.

Posts are required to include project plan and PEPFAR indicators in the Volunteer Reporting
Form so that Volunteers may report their relevant activities each reporting period. This
information is used annually by the agency to assess its progress in meeting Peace Corps’
Strategic Goal 1, to “enhance the capacity of host country individuals, organizations and
communities to meet their skill needs.”

The U.S. Department of State’s Office of U.S. Global AIDS Coordinator released PEPFAR Next
Generation Indicators Reference Guidance, in August 2009. This revised reporting guidance
requires U.S. agencies receiving PEPFAR funds to collect and report on new indicators, and to
report on other indicators differently. The post’s programming staff did not use a revised
Volunteer Reporting Tool and did not incorporate new PEPFAR indicators into the Volunteer
Reporting Form in early 2010. Some cumulative data used to assess progress toward meeting
project objectives is missing as a result, and an annual report submitted to the PEPFAR country
team in November 2010 was missing data for the following indicators:

       Number of children that were provided education and/or vocational training;


Final Program Evaluation Report: Peace Corps/Swaziland                                        11
       Number of youths, adults and caregivers that were provided psychological, social or
       spiritual support; and
       Number of youths, adults and caregivers that were provided economic strengthening
       services.

The PEPFAR country team and post staff determined that, to effectively monitor all care and
support activities in-country, Volunteers would need to report on the activities listed above.
Peace Corps headquarters distributed a revised Volunteer Reporting Tool in December 2009 with
guidance for posts to generate a new Volunteer Reporting Form so Volunteers could accurately
report on activities germane to the next generation indicators. Posts were directed to use the
updated Volunteer Reporting Tool to generate cumulative reports from Volunteer Reporting
Forms and to generate and submit semi-annual and annual reports to in-country PEPFAR teams.

The PEPFAR technical coordinator reported in January 2011 that efforts are underway to use the
new Volunteer Reporting Tool to generate a Volunteer Reporting Form for Volunteers to report
on their activities related to the next generation indicators. The post will analyze the activities
reported by Volunteers shortly to determine whether they were able to report accurately on the
next generation indicators for the reporting period that ended January 31, 2010.

               We recommend:

                 4. That the post include all necessary President’s
                    Emergency Plan for AIDS Relief indicators in the
                    Volunteer Reporting Form to ensure that Volunteers can
                    report comprehensively on their project activities.



The post’s Volunteer work site identification, development, and site history tracking practices
are effective.

We found that efforts by post staff to improve site development and Volunteer site placements
have resulted in sound programmatic and Volunteer support practices. Post staff effectively
develop sites and select Volunteer housing that meets the post’s standards, and effectively use
site histories to inform sound site placement decisions.

Volunteers are satisfied with their housing. Volunteers rated their living accommodations with
their host families during PST and at their permanent sites favorably, and they reported their
housing met the post’s health and safety standards when they moved in. When we visited 17
Volunteers at their sites, we confirmed that their housing met the post’s criteria. Effective site
placement decisions made by post staff are reflected in Volunteer’s positive responses to the
following questions: “How satisfied are you with your site?” and, “Do you feel there is enough
work to do at your site?” All 21 Volunteers responded favorably to these questions.

Peace Corps’ Programming and Training Guidance: Management and Implementation Part E on
Site Development states:

Final Program Evaluation Report: Peace Corps/Swaziland                                               12
       Volunteers can more easily thrive when their sites and homes are safe, their families and neighbors
       are welcoming, their role and work assignment are well-defined, and partners and host families
       understand their roles.

The post has successfully incorporated quite a few of the guidance’s suggested strategies,
including:

       The country director directed post staff to “prepare” sites, and Volunteers continue to
       “develop” their sites in the months after arrival;
       A staff team is used to support site preparation, with well-defined roles and backups;
       Volunteers visit potential sites and provide feedback;
       Host country national staff play an important role by gathering honest information about
       the community and the potential host families; and,
       Volunteer feedback on the future use of their site is documented.

Post staff has developed and uses site interview templates and talking points to ensure that the
role of the Volunteer and expectations of the host family, supervisor, and counterpart are
discussed in community meetings and in informational presentations about the Peace Corps. It is
the responsibility of the Volunteer to further “develop” their site during their first three months at
site by working with their counterpart to integrate, forming working relationships with additional
community members, and completing their community needs assessments. A programming staff
member responsible for site development noted that this strategy reduced the staff resources
required to address issues at Volunteers sites.

The post requires each community to list at least three housing options on the Volunteer request
form. Each housing option is assessed by the post’s safety and security and medical staff, and
only housing options that meet all safety and health standards after minimal upgrades may be
selected. To ensure housing is ready for Volunteers when they arrive at their sites, trainees are
asked to report to post staff if their housing does not appear to be ready when they visit their site
during PST.

Peace Corps Manual section (MS) 270 “Volunteer/Trainee Safety and Security” requires that
each post maintain site history documentation from the time that initial evaluation of the site
begins:

       The site history must also capture security issues that could affect future Volunteer placements in
       particular areas. Information should include Volunteer concerns about a location, safety or security
       incidents that occur in the community, and other conditions that could otherwise affect a future
       decision to place a Volunteer in that location.

The SSC and program assistant developed a system for tracking site histories that aligns with the
MS guidance. Site history files may be accessed by all staff responsible for identifying sites and
for providing Volunteers support at site.

We reviewed a sample of site history files and determined they are up-to-date and contain safety
information suggested in the guidance, as well as project-related information. We found site

Final Program Evaluation Report: Peace Corps/Swaziland                                                        13
history files contained: medical and safety site evaluations, site interview forms and letters of
acknowledgment signed by community leaders, site visit records, housing upgrade forms, and
close of service site evaluations with Volunteer feedback. The SSC maintains separate records
of safety and security incidents that have occurred at the site and this information is considered
when making placements. Currently, female Volunteers are not placed at sites in the northern
region of Swaziland due to safety and security concerns raised by former Volunteers who served
there.

We commend the post on its sound site development, site placement, and site history tracking
practices. We encourage the region’s chief of program and training to work with post staff to
identify, collect, and disseminate PC/Swaziland site selection and development practices that
could be extended as best practices to other posts.

Programming staff effectively prepare counterparts for their role as Volunteer partners.

The post builds the capacity of counterparts by discussing expectations with them during site
identification and including them in the two-year programming and training cycle of a Volunteer.
MS 270 requires the orientation of counterparts, host families and host communities about the
Peace Corps and the work of the Volunteer in order to promote more welcoming communities,
more supportive counterparts and authorities, and to better-define the roles of each party. Peace
Corps’ Office of Overseas Training and Support defines counterparts as, “the individuals who
work with Volunteers and jointly learn through experience how to do something new within the
local cultural context with enough competence and confidence to transfer their learning to
others.” Training and working with counterparts directly contributes to Peace Corps’ goal one,
“to help the people of interested countries in meeting their needs for trained men and women.”

The Programming and Training Guidance sections on Volunteer site development and training
design and evaluation discuss the importance of orienting the potential counterpart, emphasizing
their role in ensuring Volunteer’s safety, security and health, as well as the importance of
Volunteers working with counterparts in capacity-building partnerships. The post has
established a number of effective practices and strategies to achieve these goals. Many of these
practices could be presented as best practices in future regional conferences and training
programs:

       Post staff discusses counterpart expectations in community and one-on-one meetings with
       the help of a site interview guide, and community members are asked to sign a letter of
       acknowledgement.
       Counterparts learn further about their role by attending pre-service
       trainings with trainees. Counterparts escort trainees to their future site so
       that trainees may familiarize themselves with the travel route. While at
       site, the counterpart introduces the trainee to their host family and to their
       community.
       Counterparts participate in a project design workshop with Volunteers
       after the Volunteer has completed one year of service.



Final Program Evaluation Report: Peace Corps/Swaziland                                          14
All 21 Volunteers confirmed they have at least one counterpart, and rated the following
questions a 4.0 or higher average when asked:

           Table 3: Volunteer Responses on Perceptions of Counterpart Support
                                                                  Average Rating
                  Rate your counterpart(s) on how well they…
                  Support you in meeting project objectives            4.1
                  Help you with community integration                  4.0
                  Please characterize your working relationship
                                                                       4.2
                  with your primary counterpart
                 Source: OIG Volunteer Interviews.

Volunteers stated that the timing of counterpart training was ideal for designing projects together
during mid-service training. Staff also reported that assigning KaGogo Center managers to work
with Volunteers has resulted in more counterparts attending training with Volunteers.

TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as:
      Training adequacy;
      Planning and development of the training life cycle; and,
      Staffing and related budget.

In reviewing the post’s process for planning and developing Volunteer training, OIG found no
significant areas of concern that would warrant action by the post. Programming and training
staff have fully implemented the training, design and evaluation process. Volunteers indicated in
interviews that they received the right training at the right time during their service. Under the
direction of the CD, the training staff developed learning objectives for ISTs and recorded lesson
plans and successful training techniques after sessions are delivered for future use. Post staff
confirmed in interviews they are involved in planning and revising trainings as needed.

We asked Volunteers to rate pre-service and in-service training programs offered at three and
twelve month intervals during their service and the Volunteers reported that trainings were
generally effective.




Final Program Evaluation Report: Peace Corps/Swaziland                                           15
                   Table 4: Volunteer Perceptions of Training Effectiveness
                                                   Percent of        Average Rating
                                              Volunteers Rating
                                                 “Moderately
                                              Effective” or Better
            Pre-service Training:
                    Language                          71%                   3.3
                    Culture                           90%                   3.8
                    Safety & Security                100%                   4.7
                    Health                           100%                   4.5
                    Technical                         90%                   3.4
            3 month IST                              100%                   4.1
            12 month IST                              93%                   3.9
          Source: OIG Volunteer Interviews.

Volunteers rated the effectiveness of language and technical training a lower rating in our scale,
“moderately effective,” compared to the other trainings that were rated “above average in
effectiveness.” Some Volunteers described being overwhelmed by statistics and complex
technical facts presented to them about HIV/AIDS. As trainees, they worried about the types of
questions they would be expected to answer by members of their community. However, they
also noted they were given reference materials to study at their own pace and they had a better
understanding of this information after subsequent ISTs.




Final Program Evaluation Report: Peace Corps/Swaziland                                           16
Efforts are underway to improve language learning.

One-third (11 of 33) of the Group 8 Volunteers who swore-in to service in August 2010 did not
meet the minimum SiSwati language requirement of intermediate low when tested at the end of
Pre-service Training. Local language acquisition is particularly challenging for older
Volunteers. Sixty-three percent of 50+ Volunteers did not pass the language requirement,
compared to just 24 percent of Volunteers under the age of 50 who did not pass. Of the group
that did not pass, only three of 11 passed when re-tested during IST, and all three were
Volunteers in their twenties.

While the majority of Volunteers we interviewed reported that post language trainers and
language materials were of high quality, Volunteers and training staff alike reported there was
not enough time devoted to practicing language at PST. Currently, 40 of the 225 hours of PST
are devoted to language learning. The 50+ trainees indicated in their feedback they would prefer
to train with others who are learning the language at a similar pace, rather than train with a
mixed pace group.

Volunteers who do not meet the minimum language requirement must continue language
learning at their work sites, and training staff are working to improve this training. The post
instituted a language remediation program two years ago. Through the program, tutor
reimbursement is offered to Volunteers and the training manager and language and cultural
coordinator visit Volunteers during their first four to six weeks at site to discuss their language
learning needs.

The CD asked training staff to develop an action plan for making further improvements to
language learning prior to next PST in June 2011. The plan includes developing additional audio
and grammar materials for self-study, planning more structured language lessons based on
themes taught concurrently in technical and cultural trainings, and allowing trainees more
practice time in class through role plays and dialogues. Training staff will continue to use
Volunteer feedback to plan follow-up language trainings offered during IST.

Based on the post’s attention to this issue, we are not making recommendations at this time.

PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF

Another objective of this post evaluation is to answer the question, “Is the post able to
adequately administer the President’s Emergency Plan for AIDS Relief (PEPFAR) program,
support Volunteers, and meet its PEPFAR objectives?” To answer this question, we evaluate:
       Whether the post is implementing its PEPFAR objectives as laid out in the annual
       implementation plan;
       Relationships between the post and coordinating partners; and,
       Whether Volunteers are fulfilling HIV/AIDS-related assignments and handling related
       challenges.




Final Program Evaluation Report: Peace Corps/Swaziland                                                17
In reviewing the PEPFAR objectives, HIV/AIDS-related Volunteer training and assignments,
and the post’s coordination with other U.S. government agencies in-country to implement
PEPFAR, we found no significant areas of concern that would warrant action by the post.
Elsewhere in our report, we related data collection and reporting lapses and recommended that
the post include all necessary indicators in the Volunteer Reporting Form to ensure that
Volunteers can report comprehensively on their project activities.

PEPFAR partners described the post’s relationship with the in-country PEPFAR team as
constructive and supportive. The post’s philosophy for programming PEPFAR funds follows
Peace Corps guidance. Post limits its PEPFAR spending to supplementing programming and
operations. The in-country PEPFAR team received additional FY 2011 funds which resulted in a
higher amount allotted to the post after annual planning was completed. The post plans to reduce
the additional one-time funds to complete renovations of the post building and to provide staff
training in early 2011. Volunteers involved in PEPFAR-funded Volunteer Activities Support
and Training grants responded favorably when asked how well they are operating.




Final Program Evaluation Report: Peace Corps/Swaziland                                          18
                 OBJECTIVE, SCOPE AND METHODOLOGY

The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud, waste,
abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. In February 1989, the Peace Corps OIG was established under the Inspector
General Act of 1978 and is an independent entity within the Peace Corps. The Inspector General
(IG) is under the general supervision of the Peace Corps Director and reports both to the Director
and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas posts and
domestic offices. OIG evaluators identify best practices and recommend program improvements
to comply with Peace Corps policies.

The Evaluation Unit announced its intent to conduct an evaluation of PC/Swaziland on August 4,
2010. For post evaluations, we use the following researchable questions to guide our work:

   To what extent has post developed and implemented programs to increase host country
   communities’ capacity?
   Does training prepare Volunteers for Peace Corps service?
   Has the post provided adequate support and oversight to Volunteers?
   Are post resources and agency support effectively aligned with the post’s mission and agency
   priorities?
   Is the post able to adequately administer the PEPFAR program, support Volunteers, and meet
   its PEPFAR objectives?

Preliminary research for this evaluation occurred from August 31, 2010-October 29, 2010. This
research included review of agency documents provided by headquarters and post staff. We
conducted interviews with management staff representing the Africa region, and the Office of
Medical Services, the Office of Special Services, the Office of AIDS Relief, and the Office of
Strategic Information, Research and Planning. We made inquiries for PC/Swaziland program-
related materials and data to the offices of Safety and Security, Office of Programming and
Training Support, Volunteer Recruitment and Selection, and the Office of Private Sector
Initiatives.

In-country fieldwork occurred from November 3-23, 2010, and included interviews with post
senior staff in charge of programming, training, and support; U.S. Embassy officials, host
country government ministry officials, and host country partner representatives. In addition, we
interviewed a stratified judgmental sample of 21 Volunteers (30 percent of Volunteers serving at
the time of our visit) based on their length of service, site location, project focus, gender, age,
and ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency (CIGIE). The evidence,


Final Program Evaluation Report: Peace Corps/Swaziland                                           19
findings, and recommendations provided in this report have been reviewed by agency
stakeholders affected by this review.


                               INTERVIEWS CONDUCTED

As part of this post evaluation, interviews were conducted with 21 Volunteers, nine staff
members in-country, and 21 representatives from Peace Corps headquarters in Washington D.C.,
the U.S. Embassy in Swaziland, and key ministry officials. Volunteer interviews were conducted
using a standardized interview questionnaire, and Volunteers were asked to rate many items on a
five-point scale (1 = not effective, 3 = average effective, 5 = very effective). The analysis of
these ratings provided a quantitative supplement to Volunteers’ comments, which were also
analyzed. For the purposes of the data analysis, Volunteer ratings of “3” and above are
considered favorable. In addition, 17 out of 21 Volunteer interviews occurred at the Volunteers’
homes, and we inspected their 13 homes (some occupied by more than one Volunteer) using
post-defined site selection criteria. The period of review for a post evaluation is one full
Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in Swaziland; the Volunteer sample was selected to reflect these demographics.

                               Table 5: Volunteer Demographic Data
                                                                Percentage of
                                Project
                                                                  Volunteers
             Health                                          100%
                                                                Percentage of
                                Gender
                                                                  Volunteers
             Female                                          63%
             Male                                            37%
                                                                 Percentage of
                                  Age
                                                                  Volunteers
             25 or younger                                   57%
             26-29                                           16%
             30-54                                           9%
             55 and over                                     19%
            Source: September 2010 PC/Swaziland Volunteer roster.
            Note: Percentages may not total 100% due to rounding.

At the time of our field visit, PC/Swaziland had 19 staff positions. The post also employs temporary
staff/contractors to assist with PST. Given the time of our visit, these positions were not staffed. We
interviewed nine staff members.




Final Program Evaluation Report: Peace Corps/Swaziland                                               20
             Table 6: Interviews Conducted with PC/Swaziland Staff Members
                             Position                      Status   Interviewed
       Country Director                                          USDH              X
       Director of Management and Operations                     USDH              X
       Associate Peace Corps Director/Health                     USDH              X
       Associate Peace Corps Director/Health                      PSC              X
       Program Assistant                                          PSC
       PEPFAR Coordinator                                        US PSC            X
       Training Manager                                           PSC              X
       Language & Cultural Coordinator                            PSC              X
       Peace Corps Medical Officer                               US PSC            X
       Medical Assistant                                          PSC
       Safety & Security Coordinator                              PSC              X
       IT Specialist                                              PSC
       Executive Assistant/Receptionist                           PSC
       Cashier                                                    FSN
       Financial Assistant                                        FSN
       General Services Manager                                   PSC
       General Services Assistant                                 PSC
       Driver/Mechanic (2)                                        PSC
      Data as of September 2010.

Twenty-one additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps headquarters in
Washington, D.C.




Final Program Evaluation Report: Peace Corps/Swaziland                                           21
   Table 7: Interviews Conducted with PC/Headquarters Staff, Embassy Officials and Key
                                         Ministry Officials
                              Position                                Organization
     Regional Director                                        PC/Headquarters
     Regional Programming & Training Specialist               PC/Headquarters
     Country Desk Officer                                     PC/Headquarters
     Country Desk Assistants (2)                              PC/Headquarters
     Peace Corps Safety & Security Officer                    PC/Headquarters
     Regional Advisor (formerly SRPTC)                        PC/South Africa
     Director, Office of AIDS Relief                          PC/Headquarters
     Office of AIDS Relief Programming & Training Advisor PC/Headquarters
     Chief, Clinical Programs                                 PC/Headquarters
     Deputy Director, Counseling and Outreach Unit            PC/Headquarters
     Chief of Planning, Performance & Data Management         PC/Headquarters
     U.S. Ambassador                                          U.S. Embassy in Swaziland
     Regional Security Officer                                U.S. Embassy in Swaziland
     Country Coordinator, PEPFAR Program                      U.S. Department of State
     PEPFAR Prevention Advisor                                U.S. Agency for International
                                                              Development
     Impact Mitigation Specialist, PEPFAR Program             U.S. Agency for International
                                                              Development
     Director, National Emergency Response Coordination for
                                                              Office of the Prime Minister
     HIV/AIDS
     Principal Secretary                                      Ministry of Education
     Deputy Director                                          World Food Programme in
                                                              Swaziland
     Director, Baylor International Pediatric AIDS Initiative Baylor College of Medicine in
                                                              Swaziland
     Data as of December 2010.




Final Program Evaluation Report: Peace Corps/Swaziland                                        22
                         LIST OF RECOMMENDATIONS

WE RECOMMEND:

   1. That the Office of Medical Services review pre- and post-service medical
      files and Federal Employees’ Compensation Act claims for PC/Swaziland
      Volunteers who have early terminated or medically separated, and, if
      deemed appropriate, use these findings to inform its process for the
      medical clearance of applicants selected to live and work with HIV/AIDS
      populations.

   2. That Office of Volunteer Recruitment and Selection in conjunction with
      the Office of Medical Services and the post, determine if additional
      applicant assessment and selection protocols are required to effectively
      select and place applicants who will live and work with HIV/AIDS
      populations in PC/Swaziland programs.

   3. That the post, with support of Office of Medical Services, assess the
      workload of the PCMO to determine whether additional medical staff is
      needed, and if additional local professional resources are available to
      support Volunteers’ mental health needs.

   4. That the post include all necessary President’s Emergency Plan for AIDS
      Relief indicators in the Volunteer Reporting Form to ensure that
      Volunteers can report comprehensively on their project activities.




Final Program Evaluation Report: Peace Corps/Swaziland                           23
APPENDIX A



           AGENCY’S RESPONSE TO PRELIMINARY REPORT




Final Program Evaluation Report: Peace Corps/Swaziland   24
APPENDIX A




   1. That the Office of Medical Services review pre- and post-service medical files and
      Federal Employees’ Compensation Act claims for PC/Swaziland Volunteers who
      have early terminated or medically separated, and, if deemed appropriate, use these
      findings to inform its process for the medical clearance of applicants selected to live
      and work with HIV/AIDS populations.

       Concur.

       The Office of Medical Services (OMS) has reviewed the Federal Employee
       Compensation Act (FECA) claims for PCVs from Swaziland who early-terminated. This
       research shows that there has been only one FECA claim for mental health by an early-
       terminating Swaziland volunteer in the five years from 2007 to 2011 (to date).

       The Office of Medical Services (OMS) did additional data mining in collaboration with
       The Office of Strategic Information, Research and Planning. Review of causes for Early
       Termination (ET) of Swaziland volunteers since 2007 showed no trend in ETs as a result
       of mental health concerns or needs.

       Review of OSIRP early termination/resignation data provided by The Office of Strategic
       Information, Research and Planning for mental/emotional health for Swaziland from
       2007-present amongst Volunteers revealed the following: 2007 (0); 2008 (0); 2009 (1);
       2010 (2); and 2011 (0). There were a total of 3 early terminations/resignations since
       2007.

       Based on the research and review of the data, OMS has concluded that no changes to the
       medical clearance process for applicants selected to live and work in HIV-saturated
       populations is not warranted at this time.


Final Program Evaluation Report: Peace Corps/Swaziland                                      25
APPENDIX A


       Completion Date:
       July 15, 2011

   2. That Office of Volunteer Recruitment and Selection in conjunction with the Office
      of Medical Services and the post, determine if additional applicant assessment and
      selection protocols are required to effectively select and place applicants who will
      live and work with HIV/AIDS populations in PC/Swaziland programs.

       Concur.

       To prepare a more global response to the IG findings, a review of the case management
       system at HQ was done to determine the incidence of field consults on mental health
       topics and medical evacuations with a mental health diagnosis from Jan 2009-present.
       The four Posts considered to be those with the highest incidence of HIV/AIDS are
       Swaziland, Botswana, Lesotho and South Africa.

       Review of OSIRP early termination/resignation data provided by The Office of Strategic
       Information, Research and Planning for mental/emotional health for Swaziland from
       2007-present amongst Volunteers revealed the following: 2007 (0); 2008 (0); 2009 (1);
       2010 (2); and 2011 (0). There were a total of 3 early terminations/resignations since
       2007.

       Research done by OMS, together with data from OSIRP have shown that additional
       assessment and selection protocols for applicants who work with HIV/AIDS populations
       is not required.

       The Office of Volunteer Recruitment and Selection (VRS), Post and the Region have
       engaged in discussions on additional (non-medical) applicant assessment and selection
       protocols.

       VRS staff is charged with qualitative evaluation of applicants based on four key areas:
       Motivation and Commitment, Productive Competence, Social Sensitivity/Cultural
       Awareness and Emotional Maturity. Beyond these guiding principles used for all
       applicants, VRS relies on two documents generated by the Region to contextualize the
       unique paradigm of service in a given country: 1) Quarterly Trainee Request Submission
       (QTRS), and 2) Volunteer Activity Description (VAD).

       In an effort to give greater texture and clarity to VRS on the reality of volunteer service
       in Swaziland, the Africa Region has updated the Living Conditions section of the
       Quarterly Trainee Request Submission to more accurately reflect the challenging work
       environment of service in Swaziland.

       The Region and Post believe that with the updated QTRS and existing VAD, the
       challenges faced by volunteers in Swaziland is appropriately captured.

       Documents submitted:

Final Program Evaluation Report: Peace Corps/Swaziland                                               26
APPENDIX A


       1. Updated QTRS. Effective Date: 13 July 2011
       2. VAD for Swaziland. Effective Date: 11 February 2011

       Completion Date:
       13 July 2011


   3. That the post, with support of Office of Medical Services, assess the workload of the
      PCMO to determine whether additional medical staff is needed, and if additional
      local professional resources are available to support Volunteers’ mental health
      needs.

       Concur.

       The Office of Medical Services (OMS) and Region have discussed the Country Director
       and the PCMO, the PCMO’s workload to determine if additional medical staff is needed.
       Per the request of the PCMO, Post will secure the services of the current back-up
       provider for an additional weekend per month, allowing the PCMO additional time off.
       This community nurse has worked well with the PCMO and covers for the PCMO while
       on vacation and one weekend per month.

       Additionally, the PCMO has identified a young psychologist raised in Swaziland and
       trained in Australia who is being assessed for her ability to counsel Volunteers. This
       after a long standing relationship with a local counselor ended when that counselor
       moved to South Africa.

       The PCMO in Swaziland was also interviewed by phone to solicit her comments on the
       recommendations of the IG report. She reports she does not feel “overwhelmed or
       overworked”. The planned expansion of the Post in now is not happening. Comments
       made regarding shortages in staff were made in anticipation of a growing post.

       OMS, with the concurrence of the PCMO, Country Director and the Region has
       determined that the mental health needs of the volunteers are not so burdensome that the
       PCMO cannot support them with the resources available.

       Completion Date:
       August 2011

   4. That the post include all necessary President’s Emergency Plan for AIDS Relief
      indicators in the Volunteer Reporting Form to ensure that Volunteers can report
      comprehensively on their project activities.

       Concur.

       Post has incorporated three core PEPFAR indicators in the “Post Defined Questions”
       section of the Volunteer Reporting Tool (VRT) to gather this data. Post has also

Final Program Evaluation Report: Peace Corps/Swaziland                                          27
APPENDIX A


       requested of the Office of AIDS Relief that future versions of the VRT include a
       PEPFAR specific section with all appropriate indicators.

       Volunteers began reporting on these indicators in January, 2011.

       Indicators include:


       1. Number of eligible individuals provided with psychological, social or spiritual
          support. For each age range please specify the number participating:

              -   Individual Male > 24, 15-24, Under 15

              -   Individual Female >24, 15-24, Under 15

              -   Service Providers > 24, 15-24, Under 15

       2. Number of eligible individuals provided with economic services. For each age range
          please specify the number participating:

              -   Individual Male > 24, 15-24, Under 15

              -   Individual Female > 24, 15-24, Under 15

              -   Service Providers > 24, 15-24, Under 15

       3. Please list the number of individuals who participated in a community-wide event and
          the number of events you held.


       The following PEPFAR indicator had already been included in the “Post Defined
       Questions” of the VRF:

       Number of eligible children provided with education and/or vocational training. For each
       age range, please specify the number participating:

       -   Individual Male > 24, 15-24, Under 15

       -   Individual Female > 24, 15-24, Under 15

       Service Providers > 24, 15-24, Under 15

       Completion Date:
       January 2011




Final Program Evaluation Report: Peace Corps/Swaziland                                       28
APPENDIX B



                                   OIG COMMENTS

Management concurred with all 4 recommendations. Based on the documentation provided, we
closed 2 recommendations: numbers 3 and 4. In its response, management described action it is
taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the region or post has
taken these actions or that we have reviewed the effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted, we may
conduct follow-up review to confirm that action has been taken and to evaluate the impact.
Two recommendations, numbers 1 and 2, remain open pending confirmation from the chief
compliance officer that the documentation reflected in OIG analysis is received.

1: That the Office of Medical Services review pre- and post-service medical files and
Federal Employees’ Compensation Act claims for PC/Swaziland Volunteers who have early
terminated or medically separated, and, if deemed appropriate, use these findings to
inform its process for the medical clearance of applicants selected to live and work with
HIV/AIDs populations.

       Concur: The Office of Medical Services (OMS) has reviewed the Federal Employee
       Compensation Act (FECA) claims for PCVs from Swaziland who early-terminated. This
       research shows that there has been only one FECA claim for mental health by an early-
       terminating Swaziland volunteer in the five years from 2007 to 2011 (to date).

       The Office of Medical Services (OMS) did additional data mining in collaboration with
       The Office of Strategic Information, Research and Planning. Review of causes for Early
       Termination (ET) of Swaziland volunteers since 2007 showed no trend in ETs as a result
       of mental health concerns or needs.

       Review of OSIRP early termination/resignation data provided by The Office of Strategic
       Information, Research and Planning for mental/emotional health for Swaziland from
       2007-present amongst Volunteers revealed the following: 2007 (0); 2008 (0); 2009 (1);
       2010 (2); and 2011 (0). There were a total of 3 early terminations/resignations since
       2007.

       Based on the research and review of the data, OMS has concluded that no changes to the
       medical clearance process for applicants selected to live and work in HIV-saturated
       populations is not warranted at this time.

       Completion Date:
       July 15, 2011

       OIG Analysis: We acknowledge the agency’s efforts to address this recommendation
       through its review of early termination data and FECA claims for PC/ Swaziland
       Volunteers. However, OMS did not include in its response results of its review of pre-

Final Program Evaluation Report: Peace Corps/Swaziland                                          29
APPENDIX B


       and post-service medical files for Volunteers who early terminated or medically
       separated. We concluded in the subject report that further analysis of the pre- and post-
       service records of Volunteers who did not complete their service in Swaziland would
       help inform decisions about adjusting the applicant selection and placement strategy for
       service in Swaziland, and could increase the prospect that more Volunteers successfully
       complete their service. Please submit a summary of review of pre- and post-service
       medical files for PC/Swaziland Volunteers who have early terminated or medically
       separated since 2007 to inform the process for the medical clearance of applicants
       selected to live and work with HIV/AIDS populations.

2: That Office of Volunteer Recruitment and Selection in conjunction with the Office of
Medical Services and the post, determine if additional applicant assessment and selection
protocols are required to effectively select and place applicants who will live and work with
HIV/AIDS populations in Swaziland.

       Concur: To prepare a more global response to the IG findings, a review of the case
       management system at HQ was done to determine the incidence of field consults on
       mental health topics and medical evacuations with a mental health diagnosis from Jan
       2009-present. The four Posts considered to be those with the highest incidence of
       HIV/AIDS are Swaziland, Botswana, Lesotho and South Africa.

       Review of OSIRP early termination/resignation data provided by The Office of Strategic
       Information, Research and Planning for mental/emotional health for Swaziland from
       2007-present amongst Volunteers revealed the following: 2007 (0); 2008 (0); 2009 (1);
       2010 (2); and 2011 (0). There were a total of 3 early terminations/resignations since
       2007.

       Research done by OMS, together with data from OSIRP have shown that additional
       assessment and selection protocols for applicants who work with HIV/AIDS populations
       is not required.

       The Office of Volunteer Recruitment and Selection (VRS), Post and the Region have
       engaged in discussions on additional (non-medical) applicant assessment and selection
       protocols.

       VRS staff is charged with qualitative evaluation of applicants based on four key areas:
       Motivation and Commitment, Productive Competence, Social Sensitivity/Cultural
       Awareness and Emotional Maturity. Beyond these guiding principles used for all
       applicants, VRS relies on two documents generated by the Region to contextualize the
       unique paradigm of service in a given country: 1) Quarterly Trainee Request Submission
       (QTRS), and 2) Volunteer Activity Description (VAD).

       In an effort to give greater texture and clarity to VRS on the reality of volunteer service
       in Swaziland, the Africa Region has updated the Living Conditions section of the
       Quarterly Trainee Request Submission to more accurately reflect the challenging work
       environment of service in Swaziland.

Final Program Evaluation Report: Peace Corps/Swaziland                                               30
APPENDIX B



       The Region and Post believe that with the updated QTRS and existing VAD, the
       challenges faced by volunteers in Swaziland is appropriately captured.

       Documents submitted:
       3. Updated QTRS. Effective Date: 13 July 2011
       4. VAD for Swaziland. Effective Date: 11 February 2011

       Completion Date:
       13 July 2011

       OIG Analysis: We acknowledge the agency’s efforts to address this recommendation
       and we have received the updated Quarterly Trainee Request Submission (QTRS) and the
       Volunteer Assignment Description (VAD) for PC/Swaziland that capture the challenges
       faced by PC/Swaziland Volunteers. The VAD and QTRS discuss challenges such as
       candidates must be able to walk as much as 3 miles per day and possess the ability to
       cope with constant exposure to chronic and fatal illness among friends and community
       members, death, extreme poverty, high rates of orphaned and vulnerable youth and
       conditions of gender equality. In our subject report we noted that careful screening of
       applicants, including identifying potential risk factors that might impact a Volunteer’s
       ability to cope with a loss saturated environment as part of the medical clearance process,
       could increase the prospect that more Volunteers successfully complete their service.
       Please provide documentation demonstrating how the challenges information in the
       QTRS and the VAD is being used to effectively select and place applicants in Swaziland.




Final Program Evaluation Report: Peace Corps/Swaziland                                         31
APPENDIX C



   PROGRAM EVALUATION COMPLETION AND OIG CONTACT

PROGRAM                       This program evaluation was conducted under the
                              direction of Jim O’Keefe, Assistant Inspector General for
EVALUATION
                              Evaluations, and by Senior Evaluator April Thompson
COMPLETION                    Miller. Additional contributions were made by Reuben
                              Marshall, Jerry Black and Lisa Chesnel.




                              Jim O’Keefe
                              Assistant Inspector General/Evaluations

OIG CONTACT                   Following issuance of the final report, a stakeholder
                              satisfaction survey will be distributed. If you wish to
                              comment on the quality or usefulness of this report to help
                              us improve our products, please e-mail Jim O’Keefe,
                              Assistant Inspector General for Evaluations and
                              Inspections, at jokeefe@peacecorps.gov, or call (202)
                              692-2904.




Final Program Evaluation Report: Peace Corps/Swaziland                                      32
        Help Promote the Integrity, Efficiency, and
             Effectiveness of the Peace Corps
 Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful
activity involving Peace Corps programs or personnel should call or write the Office
    of Inspector General. Reports or complaints can also be made anonymously.




                                 Contact OIG


                                     Hotline:
            U.S./International:       202.692.2915
            Toll-Free (U.S. only):    800.233.5874

            Email:                    OIG@peacecorps.gov
            Web Form:                 www.peacecorps.gov/OIG/ContactUs

            Mail:                     Peace Corps Office of Inspector General
                                      P.O. Box 57129
                                      Washington, D.C. 20037-7129

                         Main Office: 202.692.2900

                         www.peacecorps.gov/OIG




All information and complaints will be treated confidentially unless OIG determines,
        during the course of the investigation, that disclosure is unavoidable.
